                                                     UNITED STATES O F AMERICA
                                              FEDERAL TRADE COMMISSION
                                                      WASHINGTON, D.C. 20580




                                                                                   April 9, 2014


MEMORANDUM
TO:             Chairwoman Edith Ramirez
                Commissioner Julie Brill
                Commissioner Maureen K. Ohlhausen
                Commissioner Joshua D. Wright

FROM:           Scott Wilson            ~ :-=;-;/- I } / . ,_.~
                Inspector General   'jZ1? 1 ?/( _/1.//.-~.
SUBJECT:        Federal Trade Commission's Fiscal Year 2013 Compliance with the Improper
                Payments Elimination and Recovery Act of 201 0

       In accordance with Section 3 (b) ofPublic Law 111-204, Improper Payments Elimination
and Recovery Act of 2010 (hereafter referred to as IPERA), this letter communicates the results
of my determination of the Federal Trade Commission's (FTC) compliance with applicable
provisions of the IPERA. This letter covers the FTC's Fiscal Year (FY) 2013 activities.

       In short, I have determined that the FTC is compliant with the IPERA and applicable
guidance, as further described below.

    OMB issued guidance 1 for Inspectors General to aid in their review of agencies' compliance
with IPERA. Specifically, the guidance defines compliance to mean that the agency has:

    •   Published a Performance Accountability Rep01i (PAR) for the most recent Fiscal Year
        and posted that report and any accompanying materials required by OMB on the agency
        website;
    •   Conducted a program specific risk assessment for each program or activity that conforms
        with Section 3321 ofTitle 31 U.S.C (if required);
    •   Published improper payment estimates for all programs and activities identified as
        susceptible to significant improper payments under its risk assessment (if required);
    •   Published programmatic corrective action plans in the PAR (if required);


1 OMB Memorandum M-11-16 Issuance ofRevised Parts I and II to Appendix C ofOMB Circular A-123 (Apr. 14,
2011)
          •   Published, and has met, annual reduction targets for each program assessed to be at risk
              and measured for improper payments;
          •   Reported a gross improper payment rate of less than 10 percent for each program and
              activity for which an improper payment estimate was obtained and published in the PAR;
              and
      •       Reported information on its efforts to recapture improper payments.

        Based on OMB's definition of compliance, as described above, I have determined that the
FTC is compliant. The agency has published a Performance Accountability Report for the most .
recent Fiscal Year and posted that report and any accompanying materials as required by OMB
on the agency website http://www.ftc.gov/. FTC concluded and reported in its PAR that it has not
identified any program that constitutes a high risk for improper payments and considers all of its
payments to be low risk. The agency is not required to publish improper payment estimates,
corrective action plans, or reduction targets. Further, during my review of relevant prior year
data, nothing came to my attention that indicates the agency is susceptible to significant improper
payments.

If you have questions or comments, please contact me on (202) 326-3787.


cc:           David Robbins, Executive Director
              Pat Bak, Deputy Executive Director
              Monique Fortenberry, Deputy Executive Director
              Steven A. Fisher, Chief Financial Officer and Performance Improvement Officer
              Joseph O'Leska, Deputy Chief Financial Officer
              Valerie Green, Deputy Performance Improvement Officer
              Milissa Young-Loiselle, Acting Assistant CFO for Financial Policy, Reporting &
              Controls
              Antonio Gomez, Senior Accountant
              Heather Hippsley, Chief of Staff




                                                     2
CC:   The Honorable Thomas R. Carper
      Chairman
      Senate Committee on Homeland Security & Governmental Affairs
      United States Senate
      340 Dirksen Senate Office Building
      Washington, D.C. 20510

      The Honorable Tom Coburn
      Ranking Member
      Senate Committee on Homeland Security & Governmental Affairs
      United States Senate
      340 Dirksen Senate Office Building
      Washington, D.C. 20510

      The Honorable Darrell E. Issa
      Chairman
      Committee on Oversight and Government Reform
      U.S. House of Representatives
      2157 Rayburn House Office Building
      Washington, D.C. 20515

      The Honorable Elijah E. Cummings
      Ranking Member
      Committee on Oversight and Govemment Reform
      U.S. House ofRepresentatives
      2157 Rayburn House Office Building
      Washington, D.C. 20515

      Gene L. Dodaro
      Comptroller General of the United States
      Government Accountability Office
      441 G Street, N.W.
      Washington, D.C. 20548

      Norman Dong, Acting Controller, Office of Federal Financial Management
      Office of Management & Budget
      725 1i 11 Street, NW
      Washington, D.C. 20503




                                             3
